Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  STATE MEDICAID AGENCIES’

    INITIATIVES ON HEALTH 

  INFORMATION TECHNOLOGY 

  AND HEALTH INFORMATION 

          EXCHANGE





                    Daniel R. Levinson

                     Inspector General 


                      August 2007

                     OEI-02-06-00270

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
agency operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes agency exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                       S U M M A R Y


                  OBJECTIVE
                  To assess State Medicaid agencies’ initiatives on health information
                  technology (HIT) and health information exchange (HIE).


                  BACKGROUND
                  In recent years, both the President and the Secretary of the
                  Department of Health and Human Services (the Secretary) have
                  promoted the goal of developing HIT and HIE. In 2004, the President
                  announced his plan to ensure that electronic health records are
                  available to most Americans by 2014. Additionally, the Secretary has
                  stated that he envisions that Medicare and Medicaid will be viewed as
                  leaders in the collaborative development and use of HIT.

                  Medicaid is a jointly funded Federal and State health insurance
                  program for certain low-income and medically needy persons.
                  Medicaid has been one of the fastest-growing items in Federal and
                  State budgets, with costs totaling more than $317 billion in fiscal year
                  2005. HIT and HIE have the potential to reduce health care costs
                  resulting from inefficiency, medical errors, inappropriate care, and
                  incomplete information. These potential benefits of HIT and HIE
                  adoption could be particularly important for Medicaid and its
                  beneficiaries.

                  We based this study on a survey of all State Medicaid directors and on
                  structured telephone interviews with State Medicaid directors who
                  reported that they have current or planned HIT and HIE initiatives.
                  In addition, we reviewed documentation of State HIT and HIE
                  initiatives and interviewed officials from the Centers for Medicare &
                  Medicaid Services (CMS) who are involved in this area or in the
                  implementation of Medicaid Information Technology Architecture
                  (MITA), which is a framework developed by CMS to help States
                  modernize their Medicaid information systems.


                  FINDINGS
                  Twelve State Medicaid agencies have implemented a total of 16 HIT
                  initiatives. Twelve State Medicaid agencies have implemented a variety
                  of HIT initiatives for Medicaid beneficiaries and participating providers.
                  These include claims-based electronic health records initiatives,
                  electronic prescribing initiatives, remote disease-monitoring initiatives,
                  and personal health records initiatives. In addition, many State

OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   i
E X E C U T I V E                         S U            M M A R Y


                   Medicaid agencies are in the process of developing similar HIT
                   initiatives.
                   Twenty-five State Medicaid agencies are involved in planning and
                   developing statewide HIE networks. Twenty-five State Medicaid
                   agencies are currently involved in planning and developing statewide
                   HIE networks that will allow for the secure exchange of health care
                   information. The main goal of these networks is to develop a statewide
                   infrastructure to support the widespread use of HIT. These networks
                   are intended to allow most, if not all, health care providers and payers
                   in the State to securely exchange clinical information.
                   Thirteen State Medicaid agencies include MITA as part of their HIT
                   and HIE planning. Thirteen State Medicaid agencies are incorporating
                   MITA into their HIT and HIE planning. Directors report that MITA
                   provides useful guidance from CMS that will increase the
                   interoperability of Medicaid information systems, as well as increase
                   the possibility of Medicaid participation in future HIT and HIE
                   initiatives.


                   RECOMMENDATIONS
                   Based on the findings of this study, CMS should:

                   Continue to support the goals of MITA. To further accelerate the
                   adoption of interoperable health information systems, CMS should
                   continue to emphasize the goals of MITA. CMS should work with State
                   Medicaid agencies to implement MITA to facilitate future State
                   Medicaid HIT and HIE initiatives. CMS may also consider revising the
                   criteria that States’ MMISs must meet to receive CMS approval for
                   Federal funding to ensure that the criteria reflect the goals of MITA.
                   Collaborate with other Federal agencies and offices to assist State
                   Medicaid agencies in developing privacy and security policies.
                   CMS should collaborate with other Federal agencies and offices, when
                   appropriate, to assist State Medicaid agencies in developing policies
                   regarding the use of Medicaid health care information. Areas to focus
                   on should include standards governing the transmission of Medicaid
                   data and policies to ensure that only authorized users have access to
                   records, as well as safeguards for beneficiaries’ privacy, including
                   beneficiary notice and consent and policies for handling sensitive health
                   care information.



 OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   ii
E X E C U T I V E                         S U            M M A R Y


                   Continue to work with the Office of the National Coordinator for
                   HIT to ensure that State Medicaid initiatives are consistent with
                   national goals. CMS should continue to work with the Office of the
                   National Coordinator for HIT, which coordinates all Federal HIT and
                   HIE initiatives. CMS should work with the office to ensure that State
                   Medicaid agencies’ initiatives are consistent with national goals and
                   that Medicaid is viewed as a national partner in the development of HIT
                   and HIE standards.


                   AGENCY COMMENTS
                   CMS concurred with all of our recommendations. CMS stated that it
                   supports the goals of the recommendations and has already taken steps
                   to implement them. CMS commented that it is continuing to expand
                   the MITA framework through the support of collaborative activities
                   involving the States and the industry and that it also plans to revise the
                   MMIS funding criteria to reflect the goals of MITA. CMS further noted
                   that it is working with the Agency for Healthcare Research and Quality
                   on selecting a vendor to work with State Medicaid and State Children’s
                   Health Insurance Program agencies to expand their involvement with
                   HIT and HIE and to assist States in the areas of privacy and security.
                   Finally, CMS stated that it will continue to work with the Office of the
                   National Coordinator for HIT to ensure that MITA and the State
                   initiatives that CMS supports financially are consistent with national
                   goals and objectives.




 OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   iii
Δ   T A B L E                       O F                   C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i




                  INTRODUCTION ........................................... 1




                  FINDINGS ................................................. 7

                              Twelve States Have Implemented HIT Initiatives . . . . . . . . . . . . . 7 


                              Twenty-five States Are Involved in Statewide HIE Planning . . . . 12 


                              Thirteen States Include MITA in HIT and HIE Planning. . . . . . . 14 




                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 





                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                              A: Current HIT Initiatives. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 


                              B: Planned HIT Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


                              C: Planned Statewide HIE Networks . . . . . . . . . . . . . . . . . . . . . . 23 


                              D: CMS Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 





                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 





OEI-02-06-00270         S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE                 iv
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To assess State Medicaid agencies’ initiatives on health information
                  technology (HIT) and health information exchange (HIE).


                  BACKGROUND
                  In recent years, both the President and the Secretary of the Department
                  of Health and Human Services (the Secretary) have promoted the goal
                  of developing HIT and HIE. In 2004, the President announced his plan
                  to ensure that electronic health records are available to most Americans
                  by 2014.1 Additionally, the Secretary has stated that he envisions that
                  Medicare and Medicaid will be viewed as leaders in the collaborative
                  development and use of HIT.2
                  Medicaid is a jointly funded Federal and State health insurance
                  program for certain low-income and medically needy persons. Medicaid
                  has been one of the fastest growing items in Federal and State budgets,
                  with costs totaling more than $317 billion in fiscal year (FY) 2005. HIT
                  and HIE have the potential to reduce health care costs resulting from
                  inefficiency, medical errors, inappropriate care, and incomplete
                  information.3 These potential benefits of HIT and HIE adoption could
                  be particularly important for Medicaid and its beneficiaries.
                  Health Information Technology
                  HIT is used to electronically collect, store, retrieve, and transfer clinical
                  and administrative information. The most common types of HIT
                  include electronic health records (EHR), electronic prescribing
                  (e-prescribing), remote disease monitoring, and personal health records.

                  Electronic health records are electronically accessible records of patient
                  health care information that can be viewed by health care providers.4



                  1 The White House. “A New Generation of American Innovation,” available online at 

                  http://www.whitehouse.gov/infocus/technology/economic_policy200404/innovation.pdf. 

                  Accessed May 25, 2007. 

                  2 HHS Secretary Michael Leavitt. “Secretary Leavitt’s 500-Day Plan.” Available online at 

                  http://www.hhs.gov/500DayPlan/500dayplan.html. Accessed May 1, 2007. 

                  3   Exec. Order No. 13,335, 69 FR 24059 (April 30, 2004). 

                  4 The term “EHR” is sometimes used interchangeably with electronic medical record (EMR). 

                  EMRs are an electronic means of automating a paper-based record, whereas EHRs 

                  generally contain medical information from multiple providers that may be transferred

                  electronically. 




OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE    1
I N T R O D        U C T              I O N


                    EHRs typically contain health care information from multiple providers
                    and sources.

                    Electronic prescribing is the electronic transmission of prescription or
                    prescription-related information between a prescriber and a dispenser,
                    a pharmacy benefit manager, or a health plan.

                    Remote disease monitoring is the use of automated tools to electronically
                    collect and transmit health care information to assist in patient
                    monitoring. The patient typically collects information at home and then
                    transmits the information electronically to the clinician.

                    Personal health records are electronically accessible records of patient
                    health care information that can be maintained by the patient. These
                    records may include medical histories, prescription histories, and lab
                    results that patients can give to their providers.
                    Health Information Exchange
                    HIE is defined as the sharing of health care information electronically
                    among disparate health care information systems.5 HIE requires each
                    participant in an HIE network to agree to certain information-sharing
                    policies and procedures. HIE is needed to make HIT, such as EHRs and
                    other technologies, become fully interoperable, meaning that health care
                    providers not only can view or read data from another entity, but also
                    can modify them and exchange them with other users.

                    Local or regional HIE networks are often called Regional Health
                    Information Organizations (RHIOs). The goal of these networks is to
                    allow most, if not all, health care providers and payers in a region or
                    community to securely exchange clinical information. To achieve this
                    goal, RHIOs develop and maintain standards for information sharing
                    and manage a set of contractual conventions among participants.
                    RHIOs also create agreements among HIE network participants to
                    ensure that only authorized users are permitted access to protected
                    information.
                    The Office of the National Coordinator for HIT
                    The Office of the National Coordinator for HIT works with public and
                    private-sector partners to provide leadership for the development of a


                    5 The American Health Quality Foundation. “Quality Improvement Organizations and
                    Health Information Exchange.” Available online at http://www.ahqa.org/pub/uploads/
                    QIO_HIE_Final_Report_March_6_2006.pdf. Accessed May 25, 2007.




 OEI-02-06-00270    S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   2
I N T R O D        U C T              I O N


                    nationwide HIE network, called the Nationwide Health Information
                    Network. The office, which is located within the Office of the Secretary
                    of the Department of Health and Human Services, is involved in a
                    variety of HIT and HIE activities, including developing certification
                    criteria for EHRs, identifying HIT and HIE standards, addressing
                    privacy and security concerns for HIE networks, and coordinating all
                    Federal HIT and HIE programs.6
                    Medicaid Information Systems
                    HIT often relies on existing information systems as sources of patient
                    data. Within certain Federal guidelines, each State Medicaid agency
                    develops its own information systems to assist with the administration
                    of its Medicaid program.

                    Medicaid Management Information System is the primary information
                    system used to administer Medicaid programs.7 States originally
                    designed their Medicaid Management Information Systems (MMIS) as
                    financial systems to pay Medicaid provider claims. As the Medicaid
                    program grew more complex, States expanded their MMISs to support
                    an increasing array of Medicaid program functions. Over time, States
                    developed separate subsystems to handle new agency requirements.
                    These subsystems frequently do not communicate with one another.
                    For example, a State’s MMIS might process its pharmacy claims under
                    one system and its dental claims under another system.

                    Medicaid Information Technology Architecture is a framework that the
                    Centers for Medicare & Medicaid Services (CMS) developed to help
                    modernize States’ MMISs. The Medicaid Information Technology
                    Architecture (MITA) is intended to help MMISs become integrated
                    information systems that support all the technical requirements
                    associated with administering their Medicaid programs. In April 2007,
                    CMS began asking States to complete a self-assessment. 8 In the
                    assessment, States document their current business processes and set
                    goals to improve those processes, using the MITA framework. States




                    6 Senate Testimony. “Accelerating the Adoption of Health Information Technology.”
                    Available online at http://www.hhs.gov/asl/testify/t060622a.html. Accessed April 17, 2007.
                    7 Projected State and Federal expenditures for MMISs in FY 2006 were approximately
                    $2 billion.
                    8 CMS. “MITA: Frequently Asked Questions,” available online at http://www.cms.hhs.gov/
                    MedicaidInfoTechArch/Downloads/mitaseries01.pdf. Accessed May 25, 2007.



 OEI-02-06-00270    S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE        3
I N T R O D        U C T              I O N


                    complete this assessment when they seek Federal funding for the
                    design, development, or installation of new MMISs.

                    MITA also aims to enhance States’ ability to manipulate and exchange
                    data. One of the goals of MITA is to allow for interoperability among
                    State and Federal health care agencies, RHIOs, and eventually the
                    Nationwide Health Information Network. MITA encourages States to
                    adopt common standards that will assist in HIE and improve States’
                    MMISs. MITA suggests steps such as integrating clinical and
                    administrative data within the MMIS and utilizing standards for
                    transmitting data, which are preconditions for many HIT and HIE
                    activities.
                    Medicaid Funding for HIT and HIE
                    State Medicaid agencies can receive funding for HIT and HIE initiatives
                    from Medicaid matching funds for administrative expenditures, as well
                    as from Federal grants.9 The Federal match for administrative
                    expenditures is generally 50 percent; however, it is higher for certain
                    administrative functions. In the case of MMIS expenditures, the
                    Federal match is 90 percent for design, development, and installation
                    and 75 percent for ongoing operational maintenance.10 To receive
                    Federal funding, States’ MMISs must meet certain criteria established
                    by CMS, including Chapter 11 of the State Medicaid Manual (Pub. No.
                    45), as periodically amended.11
                    States may also receive Medicaid Transformation Grants to support
                    their HIT and HIE initiatives. These grants were established by
                    Congress for FYs 2007 and 2008 and may be used for HIT.12 In January
                    2007, CMS awarded 33 grants, totaling $103 million. Eighteen of these
                    grants were for HIT and HIE initiatives, totaling $64 million.




                    9 42 U.S.C. § 1396b(a)(7). 

                    10 42 U.S.C. § 1396b(a)(3). 

                    11 42 CFR § 433.112. 

                    12 Deficit Reduction Act of 2005, Pub. L. no. 109-171, § 6081 (to be codified at        

                    42 U.S.C. § 1396b(z)).



 OEI-02-06-00270    S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE       4
I N T R O D        U C T              I O N 




                    METHODOLOGY
                    We based this study on four sources of data: (1) a survey of all State
                    Medicaid directors, (2) structured telephone interviews with all State
                    Medicaid directors who reported that they have current or planned HIT
                    and HIE initiatives, (3) a review of documentation of State HIT and HIE
                    initiatives, and (4) interviews with officials from CMS who are involved
                    in HIT and HIE initiatives in Medicaid. We collected these data
                    between July 2006 and March 2007.
                    Survey of State Medicaid Directors
                    We electronically mailed a survey to all State Medicaid directors in the
                    50 States, Washington, DC, and Puerto Rico.13 The survey was
                    completed directly by either the State Medicaid director or by his or her
                    designee. Our questions focused primarily on whether State Medicaid
                    agencies have any current or planned HIT and HIE initiatives. We
                    received a response from each of the 52 State Medicaid directors.
                    Structured Interviews With Selected Medicaid Directors
                    We conducted in-depth structured telephone interviews with all State
                    Medicaid directors or their designees in the States with a current or
                    planned HIT or HIE initiative. We considered an initiative to be
                    current if it was being used by Medicaid beneficiaries or participating
                    providers as of January 2007. We considered an initiative to be planned
                    if it was in the process of being planned or developed but was not in use
                    by Medicaid beneficiaries or participating providers as of January 2007.
                    To distinguish between current and planned initiatives, we also
                    conducted a number of follow-up interviews in early January to
                    determine the status of the initiatives.

                    We asked respondents to provide detailed information about their HIT
                    and HIE initiatives. Specifically, we asked about the technological
                    capabilities of the initiatives, the types of providers and Medicaid
                    beneficiaries who use these technologies, the entities that developed
                    these initiatives, and any reported benefits and challenges of these
                    initiatives. We received a response from each State Medicaid director
                    with a current or planned initiative.




                    13 We refer to these 52 entities as State Medicaid agencies.




 OEI-02-06-00270    S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   5
I N T R O D        U C T              I O N


                    Documentation Review
                    We requested and reviewed supplemental documentation provided by
                    the State Medicaid directors or their designees. This information
                    included State legislation, planning documents, grant proposals for the
                    Medicaid Transformation Grants, project summaries, press releases,
                    and Web sites. We used this information to further describe States’ HIT
                    and HIE initiatives.
                    Structured Interviews With CMS Officials
                    We conducted in-person, structured interviews with staff at CMS
                    involved with Medicaid HIT and HIE initiatives. We questioned staff
                    about State Medicaid agencies’ implementation of HIT and HIE
                    initiatives. We also asked them about MITA and Medicaid
                    Transformation Grants.
                    Limitations
                    The information in this report is based primarily on data reported by
                    State Medicaid directors or their designees. We did not independently
                    verify their responses or the capabilities of their HIT and HIE
                    initiatives.
                    Standards
                    Our review was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-02-06-00270    S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   6
Δ   F I N D I N G S

                  Twelve State Medicaid Agencies             Twelve State Medicaid agencies
                       Have Implemented a Total              have implemented a total of 16 HIT
                               of 16 HIT Initiatives         initiatives for Medicaid
                                                             beneficiaries and participating
                       providers. These include electronic health records initiatives, electronic
                       prescribing initiatives, remote disease-monitoring initiatives, and
                       personal health records initiatives. (See Table 1.) In addition, 39 State
                       Medicaid agencies are in the process of developing 64 similar types of
                       HIT initiatives. 14 Appendix A provides a detailed description of the
                       current initiatives. Appendix B provides a list of States with planned
                       initiatives.

                                               Table 1: Current State Medicaid HIT Initiatives
                                                                      Electronic                                     Remote     Personal
                                                                          Health                    Electronic       Disease      Health
                            State                                       Records                    Prescribing     Monitoring   Records
                            Florida                                                                            U
                            Iowa                                                        U
                            Kansas                                                      U                      U
                            Louisiana                                                   U
                            Mississippi                                                                        U
                            Missouri                                                    U                      U          U
                            Montana                                                     U
                            Pennsylvania                                                U
                            Tennessee                                                   U                      U
                            Vermont                                                     U
                            Wisconsin                                                   U
                            Wyoming                                                                                       U
                                Total Initiatives                                       9                      5           2          0
                            Source: Office of Inspector General analysis of State Medicaid directors’ responses, 2007.


                       Nine States have implemented claims-based EHRs
                       Nine State Medicaid agencies have implemented claims-based EHR
                       initiatives for Medicaid beneficiaries. These States are Iowa, Kansas,
                       Louisiana, Missouri, Montana, Pennsylvania, Tennessee, Vermont, and
                       Wisconsin. In addition, 27 State Medicaid agencies are in the process of
                       developing EHR initiatives.




                       14 Note that in a number of cases, States with current initiatives are also developing
                       additional initiatives.



OEI-02-06-00270        S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE                               7
F   I N D I N G         S


                      Technology. All nine current EHR initiatives rely on Medicaid claims
                      data from the States’ MMISs.15 These EHRs contain clinical
                      information about the patient, such as prior diagnoses, medical
                      procedures performed, and prescription history. This information is
                      derived from procedure and diagnosis codes contained in the Medicaid
                      claims data.16 In all but one case,17 authorized health care providers
                      access this information through a secure Web portal.18 Four of the EHR
                      initiatives have also begun to incorporate a limited amount of data from
                      other sources, such as immunization records from public health
                      departments.

                      Claims-based EHRs are distinct from other types of EHRs that rely on
                      HIE networks. The nine current claims-based EHR initiatives are
                      based primarily on one data source—Medicaid claims data—and have
                      limited interoperability. Unlike interoperable EHRs, in which providers
                      exchange clinical information with one another, these current EHR
                      initiatives enable providers only to view information derived from prior
                      Medicaid claims. Providers cannot directly enter information to the
                      record or exchange their clinical records with other providers. State
                      Medicaid directors report that developing claims-based EHRs is an
                      inexpensive way of offering providers health care information about
                      Medicaid beneficiaries.

                      Population served. The nine current EHR initiatives target different
                      Medicaid populations and providers. Four have records available for
                      the entire Medicaid population in the State, three have records
                      available for Medicaid beneficiaries participating in the State’s
                      fee-for-service program, one is limited to Medicaid beneficiaries
                      participating in a managed care program, and one is limited to certain
                      beneficiaries who are chronically ill. The initiatives also target different


                      15 The fee-for-service (FFS) claims represent the majority of the information used in these
                      EHRs. For managed care services, encounter data are collected rather than claims. We use
                      claims as a general term to refer to both claims and encounter data, unless otherwise noted.
                      16 Medicaid claims include Current Procedural Terminology (CPT) codes, which identify
                      specific health interventions taken by medical professionals, and International
                      Classification of Disease (ICD-9) codes, which classify diseases.
                      17 In Vermont, the EHR is accessed through the State Medicaid agency’s internal computer
                      network. See Appendix A for more details.
                      18 A Web portal is an Internet-based site or system that creates a single point of access to
                      information collected from different sources. Common portal features include user
                      authentication (log-in and password) and personalized content views in which content is
                      displayed to match specific user needs and roles.



    OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE          8
F   I N D I N G 
S


                      types of providers. Four of the current initiatives allow all enrolled
                      providers to access beneficiaries’ EHRs, while the remaining five
                      initiatives allow only specific types of providers, such as providers in
                      emergency departments, to access this information.

                      Benefits and challenges. According to State Medicaid directors, the
                      primary goal of their EHR initiatives is to improve quality of care by
                      providing more information to clinicians about beneficiaries’ medical
                      histories. Directors explain that having access to a beneficiary’s prior
                      diagnoses and treatment history enables clinicians to provide better
                      care.
                      Directors also report that their EHR initiatives may prevent Medicaid
                      fraud, waste, and abuse. Six directors state that their EHRs will likely
                      reduce duplication of services by enabling providers to see, for instance,
                      that diagnostic tests have already been performed. They also note that
                      their EHRs allow providers to identify drug-seeking behaviors of
                      beneficiaries19 and to verify beneficiary identity by checking whether
                      certain demographic information, such as the age and sex of the patient,
                      matches the information in the EHR.

                      When asked about challenges in implementing their EHR initiatives,
                      directors report that developing security and privacy policies has been a
                      major concern. As one director notes, “When you are breaking new
                      ground, there is no cookbook for privacy and security issues. Our lesson
                      learned is that everything is more complex than you think it will be.” In
                      particular, notifying beneficiaries about how their information will be
                      used and developing procedures to handle sensitive data, such as
                      mental health, substance abuse, and HIV/AIDS information, have been
                      challenging.

                      Planned EHR initiatives. The majority of the 27 State Medicaid agencies
                      with planned EHR initiatives will develop claims-based EHRs similar to
                      the current initiatives. In a few cases, Medicaid agencies are
                      attempting to develop more interoperable EHRs that will rely on HIE
                      networks. In two cases, Medicaid agencies are planning to replace their
                      claims-based initiative with more interoperable EHRs that will include
                      data from other sources and allow providers to exchange a wider range
                      of clinical information.


                      19 Drug-seeking behavior is defined as a fraudulent presentation of disease to multiple
                      doctors and pharmacies in an attempt to obtain prescription drugs for use, trade, or sale.



    OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE        9
F   I N D I N G 
S


                      Five States Have Implemented E-Prescribing Initiatives
                      Five State Medicaid agencies have developed e-prescribing initiatives
                      for Medicaid providers: Florida, Kansas, Mississippi, Missouri, and
                      Tennessee. In addition, 21 State Medicaid agencies are in the process of
                      developing e-prescribing initiatives.

                      Technology. All five current e-prescribing initiatives allow providers to
                      electronically prescribe medication and to view beneficiaries’
                      prescription histories that are derived from Medicaid claims data. The
                      initiatives also provide clinicians with information about the State’s
                      Medicaid drug formulary20 and potential drug interactions. Providers
                      can access e-prescribing through Web portals or through the use of
                      hand-held computers known as personal digital assistants. For three of
                      the initiatives that use Web portals, e-prescribing is an additional
                      function that can be accessed through the same Web portal as the
                      States’ EHR initiatives.

                      Population served. All five e-prescribing initiatives started with a
                      limited number of providers. State Medicaid agencies have since
                      expanded their initiatives or have plans to expand them in the near
                      future. For example, Florida’s State Medicaid agency first offered
                      e-prescribing to Medicaid participating providers who had the highest
                      volume of prescriptions. Now the initiative is available to all Medicaid
                      participating providers in the State.

                      Benefits and challenges. The State Medicaid directors with current
                      e-prescribing initiatives cite a number of goals of their initiatives.
                      These goals include avoiding adverse events due to drug interactions or
                      errors, limiting drug-seeking behavior by enabling physicians to view
                      medication histories, increasing adherence to the Medicaid formulary by
                      enabling providers to view formulary information, and monitoring
                      physician prescribing behaviors.

                      State Medicaid directors cite privacy and security challenges similar to
                      the ones they experienced in implementing EHR initiatives.
                      Additionally, two directors report difficulty with expanding their
                      initiatives because some pharmacies do not have the capability to
                      receive prescriptions electronically.




                      20 A drug formulary is a list of prescription medications approved for coverage.




    OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   10
F   I N D I N G 
S


                      Planned e-prescribing initiatives. The majority of the 21 State Medicaid
                      agencies with planned initiatives will develop e-prescribing initiatives
                      similar to the current initiatives. Two State Medicaid agencies with
                      current e-prescribing initiatives, Florida and Tennessee, received
                      Medicaid Transformation Grants to significantly expand upon their
                      current initiatives. For example, Florida will expand its existing
                      e-prescribing initiative to allow physicians to prescribe and dispense
                      certain types of generic medications when beginning new treatment
                      regimens for Medicaid beneficiaries.

                      Two States have implemented remote disease-monitoring initiatives
                      State Medicaid agencies in Missouri and Wyoming have implemented
                      remote disease-monitoring initiatives for selected Medicaid
                      beneficiaries. In addition, three State Medicaid agencies are in the
                      process of developing remote disease-monitoring initiatives.

                      Technology. Both remote disease-monitoring initiatives provide
                      beneficiaries with an electronic telemonitoring device for use in their
                      homes. These devices collect health information and monitor the
                      beneficiaries’ vital signs, and other medical statistics, on a daily basis.
                      In Missouri’s initiative, the device is a central processing unit that can
                      incorporate an array of technologies, such as an automated blood
                      pressure cuff or a scale. In Wyoming’s initiative, the device asks
                      beneficiaries questions about their health status, such as weight
                      changes or test results.

                      In both initiatives, the information collected from the beneficiary is
                      transmitted through a telephone line to providers who are charged with
                      monitoring the beneficiary’s health status. If any problems are
                      detected, the monitoring team follows up with the beneficiary. The
                      monitoring information is also shared with the beneficiary’s primary
                      care provider.

                      Population served. Both initiatives are available primarily to chronically
                      ill beneficiaries who might benefit from daily monitoring. These
                      beneficiaries commonly have conditions such as diabetes, asthma, and
                      chronic heart failure. In each case, the State Medicaid agency works
                      with a vendor to enroll beneficiaries and train them to use the devices.
                      The number of beneficiaries enrolled in these two initiatives ranges
                      from about 60 to 225.

                      Benefits and challenges. According to the two State Medicaid directors,
                      the overall goal of their initiatives is to improve patient outcomes and
                      reduce emergency care and hospitalizations. They also note that their

    OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   11
F   I N D I N G 
S


                      initiatives may reduce the total cost of care for participating
                      beneficiaries.

                      When asked about challenges, the two directors reported different types
                      of issues. One director noted the difficulty in keeping up-to-date
                      telephone numbers for participating beneficiaries, which is critical
                      because the initiative relies on the telephone to connect the devices and
                      to communicate with the individual. The other director cited challenges
                      with measuring the impact of these types of initiatives.
                      Planned remote disease-monitoring initiatives. The three State Medicaid
                      agencies with planned remote disease-monitoring initiatives are in the
                      early stages of development. Each State Medicaid agency is in the
                      process of assessing available technologies to select an appropriate
                      vendor.
                      No State has implemented a personal health record initiative
                      No State Medicaid agency provides personal health records to Medicaid
                      beneficiaries; however, 13 agencies are planning to develop such
                      initiatives. Most of these planned initiatives are similar to EHR
                      initiatives in that they are claims based. Unlike EHRs, however,
                      personal health records are maintained by the beneficiary, most
                      commonly through a portable computer drive or a Web portal. Medicaid
                      agencies are most commonly developing these initiatives in conjunction
                      with their EHR initiatives, often using similar technology. Two State
                      Medicaid agencies have already developed a Web portal for their
                      initiatives but have not yet released the records to Medicaid
                      beneficiaries.



        Twenty-five State Medicaid Agencies Are               Twenty-five State Medicaid
           Involved in Planning and Developing                agencies are involved in planning
                                                              and developing statewide HIE
                         Statewide HIE Networks
                                                              networks that will allow for the
                      secure exchange of health care information. The main goal of these
                      networks is to develop a statewide infrastructure to support the
                      widespread use of interoperable EHRs and other HIT. These networks
                      intend to allow most, if not all, health care providers and payers in the
                      State to securely exchange clinical information. Box 1 on page 14
                      provides a description of different State approaches to HIE networks.
                      Appendix C provides a list of the States involved in planning statewide
                      HIE networks.


    OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   12
F   I N D I N G         S


                      In all 25 States, the Medicaid agencies are working with multiple public
                      and private entities to plan and develop statewide HIE networks.21
                      These entities typically form advisory boards or nonprofit organizations
                      charged with overseeing the development of the HIE networks. These
                      groups often include representatives from the medical community and
                      insurance industry, officials from Governors’ offices and public health
                      departments, and large employers within the State.

                      State Medicaid agencies are involved in these statewide planning efforts
                      to varying degrees. In some instances, the agencies have taken a lead
                      in establishing advisory boards; in other States, the agencies are less
                      involved, taking on roles such as serving on planning committees.
                      Medicaid agencies are most commonly involved in planning that
                      includes securing funding for the networks, developing privacy and
                      security policies, establishing common data standards, and building
                      technologies to support the networks.

                      State Medicaid directors commonly highlight the importance of
                      Medicaid in the development of statewide HIE networks. As one
                      director notes, “Given the number of people that the Medicaid program
                      covers in our State, Medicaid is a major force in HIE activity.” In other
                      States, the directors note that their HIE networks are relying on
                      Medicaid data as the first step in developing a statewide infrastructure.




                      21 In some States, the Medicaid agencies are represented by the department in which the
                      Medicaid agencies are housed.



    OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE     13
    F    I N D I N G                  S            





BOX 1: STATE APPROACHES TO HIE NETWORKS

States have taken a variety of approaches to HIE. Below are several examples of statewide HIE networks.

    •	    The Delaware Health Information Network (DHIN) is a nonprofit organization created by the State
          legislature in 1997. DHIN has piloted what it claims to be the first statewide HIE network. The network,
          which includes three hospital systems and a small group of providers, enables participants to exchange
          a variety of health care information, including lab results; radiology reports; and admission, discharge,
          and transfer reports. DHIN also plans to develop a record locator system, which would enable providers
          throughout the State to locate and exchange patients’ medical records. The network will eventually be
          extended to other providers across the State.

    •	    The Florida Health Information Network (FHIN) is a nonprofit organization created by a Governor-led
          advisory board in 2005. The network will eventually provide a statewide infrastructure that will enable
          health care professionals to access patients’ medical records from any provider database connected to
          the network over a secure Internet connection. FHIN initially plans to start exchanging data between
          three existing RHIOs in Palm Beach, Tallahassee, and Tampa Bay in 2007 and intends to extend the
          program statewide at some point in the future. The FHIN will also work closely with the Office of the
          National Coordinator for HIT to model its network on the standards of the nationwide HIE network.

    •	    Arizona Health-e Connection is a nonprofit organization formed in 2007 to facilitate HIE and HIT in the
          State. Arizona has developed a plan called the Health-e Connection Roadmap that aims to achieve
          100-percent electronic health data exchange among payers, providers, consumers, researchers, and
          Government agencies, when appropriate. A stated goal of the plan is for the network to be consistent
          with the goals of the Office of the National Coordinator for HIT. As a first step, Arizona plans to develop
          a statewide Web portal that enables physicians to electronically order clinical services, generate and
          confirm referrals, and receive clinical results, while simultaneously supporting the development of
          regional HIE networks. Arizona then plans to develop a secure statewide network that will enable all
          authorized providers to exchange health care information.

  Source: Office of Inspector General analysis of States’ HIE network documentation, 2007.




                                                                         Thirteen State Medicaid agencies are
Thirteen State Medicaid Agencies Include MITA as
                                                                         incorporating MITA into their HIT
                Part of Their HIT and HIE Planning
                                                                         and HIE planning. MITA is a
                                                                         framework developed by CMS to help
                                    States modernize their Medicaid information systems. Directors report
                                    that MITA provides useful guidance that will help modernize States’
                                    MMISs and result in the more efficient administration of their Medicaid
                                    programs.

                                    Directors in these 13 States also report that implementing MITA will
                                    increase the interoperability of their MMISs, as well as increase the
                                    possibility of Medicaid participation in future HIT and HIE initiatives.
                                    Additionally, five of these directors note that the standardization of
                                    systems and data contained in the MMISs—a central goal of MITA—is
                                    also critical to Medicaid’s participation in HIE.

         OEI-02-06-00270            S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   14
F   I N D I N G         S


                      According to the directors, the 13 State Medicaid agencies are currently
                      evaluating how to incorporate MITA into their States’ MMISs. Eleven
                      of these State Medicaid agencies have either completed, or are in the
                      process of completing, an in-depth self assessment that requires them to
                      identify current weaknesses within their MMISs and potential
                      solutions.22 For example, Ohio’s State Medicaid agency has used this
                      self-assessment process to identify opportunities to integrate many of
                      the States’ disparate information systems. Currently, Ohio’s MMIS,
                      which is over 20 years old, houses Medicaid data in a number of
                      separate systems that cannot be easily accessed or manipulated. As a
                      result of the self-assessment process, the agency is now relying on MITA
                      principles to guide the development of a new, more-integrated MMIS, in
                      which data can be easily exchanged and the systems are interoperable.
                      The 13 directors also commonly highlight the need to move away from
                      outdated, inflexible systems that have limited ability to move and
                      exchange data. They state that MITA promotes improvements that go
                      beyond the traditional MMIS functions to include clinical information
                      and interoperability. According to one director, “MMISs in the past
                      were just about paying claims. Now, we want to incorporate clinical
                      information so we can see the quality of care provided and what we are
                      getting for our dollars.”




                      22 In April 2007, CMS began asking States to complete and submit MITA self-assessments
                      whenever they apply for Federal MMIS funding for new system design, development, and
                      implementation. Each of these 11 States started the self-assessment process prior to the
                      new CMS policy.



    OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE      15
Δ   R E C O M M E N D A T I O N S

                  State Medicaid agencies have implemented, or are in the process of
                  developing, a variety of HIT initiatives. About half are also involved in
                  planning and developing statewide HIE networks, and some are
                  beginning to implement MITA, which may facilitate future participation
                  in HIT and HIE initiatives. State Medicaid agencies’ efforts represent
                  significant steps toward the President’s goal of making EHRs available
                  to most Americans by 2014 and the Secretary’s vision of Medicaid
                  leadership in the collaborative development and use of HIT. Despite
                  this, much work remains to be done to facilitate further adoption of HIT
                  and HIE in Medicaid.

                  Based on the findings of this study, CMS should:
                  Continue To Support the Goals of MITA
                  To further accelerate the adoption of interoperable health information
                  systems, CMS should continue to emphasize the goals of MITA. CMS
                  should work with State Medicaid agencies to implement MITA to
                  facilitate future State Medicaid HIT and HIE initiatives. CMS may also
                  consider revising the criteria that States’ MMISs must meet to receive
                  CMS approval for Federal funding to ensure that the criteria reflect the
                  goals of MITA.
                  Collaborate With Other Federal Agencies and Offices To Assist State
                  Medicaid Agencies in Developing Privacy and Security Policies
                  CMS should collaborate with other Federal agencies and offices, when
                  appropriate, to assist State Medicaid agencies in developing policies
                  regarding the use of Medicaid health care information. Areas to focus
                  on should include standards governing the transmission of Medicaid
                  data and policies to ensure that only authorized users have access to
                  records, as well as safeguards for beneficiaries’ privacy, including
                  beneficiary notice and consent and policies for handling sensitive health
                  care information.
                  Continue To Work With the Office of the National Coordinator for HIT To
                  Ensure That State Medicaid Initiatives Are Consistent With National Goals
                  CMS should continue to work with the Office of the National
                  Coordinator for HIT, which coordinates all Federal HIT and HIE
                  initiatives. CMS should work with the Office to ensure that State
                  Medicaid agencies’ initiatives are consistent with national goals and
                  that Medicaid is viewed as a national partner in the development of HIT
                  and HIE standards.




OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   16
R   E C O        M M E N D A T                            I O N                S             





                      AGENCY COMMENTS
                      CMS concurred with all of our recommendations. CMS stated that it
                      supports the goals of the recommendations and has already taken steps
                      to implement them. CMS commented that it is continuing to expand
                      the MITA framework through the support of collaborative activities
                      involving the States and the industry and that it also plans to revise the
                      MMIS funding criteria to reflect the goals of MITA.

                      CMS further noted that it is currently working with the Office of the
                      National Coordinator for HIT to ensure that MITA complies with
                      Federal privacy and security policies. It is also working with the
                      Agency for Healthcare Research and Quality on selecting a vendor to
                      work with State Medicaid and State Children’s Health Insurance
                      Program agencies to expand their involvement with HIT and HIE and
                      to assist States in the areas of privacy and security.

                      Finally, CMS stated that it will continue to work with the Office of the
                      National Coordinator for HIT to ensure that MITA and the State
                      initiatives that CMS supports financially are consistent with national
                      goals and objectives. In FY 2008, CMS also plans to draft a white paper
                      on how MITA supports the Federal Health Architecture Framework.
                      Appendix D provides the full text of CMS’s comments.




    OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   17
Δ          A P P E N D I X ~ A

Table 1: Detailed Descriptions of Current Electronic Health Record Initiatives


State                     Description
Iowa
                          A claims-based electronic health record (EHR) that contains descriptions of diagnosis and procedure codes,
Iowa Medicaid
                          as well as prescription histories. Certain health care data, such as information related to mental health
Electronic Record         records or HIV/AIDS, may be viewed only by emergency room physicians in emergency situations. The
System (I-MERS)           EHR is accessible through a secure Web portal.

                          Developed internally by the Iowa Department of Human Services. It was launched in June 2006.

                          Records are available for all Medicaid beneficiaries. Records are currently being accessed by providers in
                          a few hospitals and clinics that focus on primary and indigent care. This technology may be accessible to
                          providers statewide by the end of 2007.

Kansas
The Community             Primarily a claims-based EHR that contains descriptions of diagnosis and procedure codes, as well as
                          prescription histories and information about managed care encounters. Also includes information from
Health Record
                          other sources, such as lab results from participating labs and immunization records and lead-screening
Pilot Project             results from the State public health department. In some cases, limited physician-entered data are
(CHRPP)                   included, such as patients’ vital signs and allergies. The EHR is accessible through a secure Web portal.

                          Developed in partnership with one of the State’s managed care organizations. It was launched in February 2006.

                          Records are available for about 14,000 Medicaid beneficiaries covered by the managed care organization in
                          one county. Records are currently accessible to approximately 300 providers at 20 test sites. This
                          technology may be accessible to providers statewide by 2008.

Louisiana
Medicaid e-CDI            A claims-based EHR that contains descriptions of diagnosis and procedure codes, as well as prescription
                          histories. Also includes clinical alerts for disease management of certain conditions, such as diabetes and
(Electronic Clinical
                          asthma. The EHR is accessible through a secure Web portal.
Data Inquiry)
                          Developed in partnership with the vendor operating the State’s MMIS. It was launched in September 2003.

                          Records are available for all Medicaid beneficiaries. Records are accessible to all enrolled Medicaid
                          providers who prescribe medication in the State, including doctors, dentists, pharmacists, and certain
                          nurses.

Missouri
CyberAccess               Primarily a claims-based EHR that contains descriptions of diagnosis and procedure codes, as well as
                          prescription histories and information about managed care encounters. In some cases, limited
                          physician-entered data are included, such as patients’ vital signs and allergies. For a subpopulation of
                          chronically ill beneficiaries, providers may also view electronic Web-based plans of care for beneficiaries.
                          The EHR is accessible through a secure Web portal.

                          Developed in partnership with a clinical management services vendor operator. It was launched in July 2006.

                          Records are available for all Medicaid fee-for-service beneficiaries and provide some encounter data for
                          beneficiaries covered by managed care organizations. Records are accessible to all enrolled Medicaid
                          providers and are currently being accessed by approximately 3,600 providers.

Montana
Montana Access            A claims-based EHR that contains descriptions of diagnosis and procedure codes, as well as prescription
                          histories. Certain health care data, such as information related to substance abuse or HIV/AIDS, are not
to Health Web
                          displayed. The EHR is accessible through a secure Web portal.
Portal
                          Developed in partnership with the vendor operating the State’s MMIS. It was launched in December 2005.

                          Records are available for all Medicaid beneficiaries. Records are accessible to all enrolled Medicaid
                          providers and are currently being accessed by more than 8,000 providers.

Source: Office of Inspector General analysis of State Medicaid directors’ responses, 2007.




          OEI-02-06-00270             S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE          18
      A    P      P E N D           I X ~               A            




Table 1: Detailed Descriptions of Current Electronic Health Record Initiatives (continued)

State                     Description
Pennsylvania
The Emergency             A claims-based EHR that contains descriptions of diagnosis and procedure codes, as well as prescription
                          histories. The EHR is accessible through a secure Web portal.
Department
Electronic Health         Developed in partnership with a chronic disease management vendor. It was launched in December 2006.
Initiative
                          Records are available for the entire Medicaid fee-for-service population. Records are currently being
                          accessed by providers in three high-volume emergency departments in rural Pennsylvania. Depending
                          upon the results of the initiative, the State may extend the initiative to all emergency departments in the
                          State.

Tennessee
                          Primarily a claims-based EHR that contains descriptions of diagnosis and procedure codes, as well as
The Shared
                          prescription histories and information about managed care encounters. Also includes information from
Health Clinical           other sources, such as lab results from participating labs and immunization records provided by the State
Record                    public health department. In some cases, limited physician-entered data are included, such as patients’
                          vital signs, over-the-counter medications, and Early Periodic Screening and Diagnostic Testing information.
                          Certain health care data, such as information related to mental health or substance abuse, are not
                          displayed. The EHR is accessible through a secure Web portal.

                          Developed in partnership with a company that is a subsidiary of a Medicaid managed care organization. It
                          was launched in June 2005.

                          Records are available for all Medicaid beneficiaries. Records are accessible to all enrolled Medicaid
                          providers and are currently being accessed by approximately 11,000 providers and other authorized users.

Vermont
Care Coordination         Primarily a claims-based EHR that enables caseworkers to track beneficiaries’ care. The EHR contains
                          descriptions of diagnosis and procedure codes, as well as prescription histories. Also includes some
Initiative
                          information entered directly by case workers such as patients’ vital signs and lab results. The EHR is
                          accessible through the State Medicaid agency’s secure network.

                          Developed internally by the State Medicaid agency. It was launched in December 2006.

                          Records are available for several hundred chronically ill beneficiaries. Records can be accessed only by
                          caseworkers who care for these beneficiaries.

Wisconsin
Emergency Room            A claims-based EHR that contains descriptions of diagnosis and procedure codes, as well as prescription
                          histories. The EHR is accessible through a secure Web portal.
Medicaid Health
Information               Developed in partnership with the vendor operating the State’s MMIS. It was launched in April 2006.
Exchange
                          Records are available for Medicaid fee-for-service beneficiaries who have had more than three emergency
                          department visits in a rolling 12-month period. Records can be accessed only by providers at
                          10 emergency rooms in Milwaukee County hospitals.


Source: Office of Inspector General analysis of State Medicaid directors’ responses, 2007.




          OEI-02-06-00270             S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE             19
      A    P    P E N D             I X ~               A            




Table 2: Detailed Descriptions of Current Electronic Prescribing Initiatives


State                     Description
Florida
Wireless                  Provides electronic prescribing (e-prescribing) to providers through a secure Web portal and personal digital
                          assistants. Includes claims-based prescription histories for fee-for-service beneficiaries, information about
Handheld PDA
                          the State’s Medicaid drug formulary, and a tool to alert providers about potential drug interactions.
Project
                          Developed in partnership with an e-prescribing vendor. It was launched in 2003.

                          E-prescribing is currently available to 3,000 providers who write approximately 80 percent of all Medicaid
                          prescriptions in the State.
                          .
Kansas
The Community             Provides e-prescribing to providers through a secure Web portal. This is the same Web portal used for the
                          State’s claims-based EHR initiative. Includes claims-based prescription histories, information about the
Health Record
                          State’s Medicaid drug formulary, and a tool to alert providers about potential drug interactions.
Pilot Project
                          Developed in partnership with one of the State’s managed care organizations and a vendor specializing in
                          HIT. It was launched in February 2006.

                          E-prescribing is currently available to approximately 76 providers at 20 test sites in Sedgwick County. This
                          technology may be released to providers statewide by 2008.

Mississippi
                          Provides e-prescribing to providers through a secure Web portal and personal digital assistants. Includes
The Gold
                          claims-based prescription histories for fee-for-service beneficiaries, information about the State’s Medicaid
Standard                  drug formulary, and a tool to alert providers about potential drug interactions.
eMPOWERx
                          Developed in partnership with an e-prescribing vendor. It was launched in October 2005.

                          E-prescribing is currently available to approximately 225 of Mississippi Medicaid’s highest volume
                          prescribers. This technology may be released to providers statewide by 2008.

Missouri
                          Provides e-prescribing to providers through a secure Web portal. This is the same Web portal used for the
CyberAccess
                          State’s claims-based EHR initiative. Includes claims-based prescription histories, information about the
                          State’s Medicaid drug formulary, and a tool to alert providers of potential drug interactions. The initiative
                          also allows providers to electronically request prior authorizations.

                          Developed in partnership with a vendor operating the State’s MMIS. It was launched in July 2006.

                          E-prescribing is currently available to approximately 3,600 providers.

Tennessee
                          Provides e-prescribing to providers through a secure Web portal. This is the same Web portal used for the
Shared Health
                          State’s claims-based EHR initiative. Includes claims-based prescription histories, information about the
ePrescribe                State’s Medicaid drug formulary, dosing instructions, and side effects, as well as a tool to alert providers
                          about potential drug interactions.

                          Developed in partnership with a vendor specializing in HIT. It was launched in June 2005.

                          E-prescribing is currently available to all prescribing providers with access to the State’s EHR initiative.


Source: Office of Inspector General analysis of State Medicaid directors’ responses, 2007.




           OEI-02-06-00270            S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE              20
      A      P   P E N D            I X ~               A            




Table 3: Detailed Descriptions of Current Remote Disease-Monitoring Initiatives


State                     Description
Missouri
                          Provides beneficiaries with an electronic telemonitoring device that enables the patients’ vital signs, or
Telemonitoring
                          other medical statistics, to be monitored daily. A central processing unit placed in the beneficiary’s home
Initiative                can incorporate an array of devices, such as a scale or an automated blood pressure cuff. The results of
                          the monitoring are transmitted to the participating beneficiary’s provider.

                          Developed in partnership with a vendor that specializes in chronic disease management. It was launched
                          in July 2002.

                          Available to beneficiaries who require medical monitoring and who have any of the following conditions:
                          diabetes, asthma, hypertension, chronic obstructive pulmonary disease, chronic heart failure, acute
                          respiratory failure, and pneumonia. Served approximately 226 beneficiaries between July 2005 and June
                          2006.

Wyoming
                          Provides beneficiaries with an electronic device which asks about their health status on a daily basis. The
Health Buddy
                          device is placed in the beneficiary’s home and plugs into the telephone line and an electrical outlet. The
Program                   results of the monitoring are transmitted to the participating beneficiary’s provider. The device also provides
                          beneficiaries with health care information and tips.

                          Developed in partnership with a vendor that specializes in chronic disease management. It was launched in
                          July 2004.

                          Available to beneficiaries who require medical monitoring and who have any the following conditions:
                          diabetes, asthma, chronic obstructive pulmonary disease, coronary artery disease, chronic heart failure,
                          hypertension, and depression. Approximately 60 beneficiaries have participated.


Source: Office of Inspector General analysis of State Medicaid directors’ responses, 2007.




             OEI-02-06-00270          S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE          21
Δ              A P P E N D I X ~ B



Planned Medicaid HIT Initiatives

                     Electronic                             Remote               Personal                                 Electronic                   Remote     Personal
                         Health       Electronic            Disease                Health                                     Health    Electronic     Disease      Health
State                   Record       Prescribing          Monitoring              Record            State                    Record    Prescribing   Monitoring    Record
Alabama                      U                                                                      Montana                      U
Alaska                                                                                              Nebraska                                                 U
Arizona                      U                   U                                        U         Nevada                                     U
                                                                                                    New
Arkansas
                                                                                                    Hampshire                    U                                       U
California                   U                                                                      New Jersey                   U
                                                                                                    New
Colorado                                                               U                            Mexico                       U             U
Connecticut                  U                   U                                        U         New York                                   U
                                                                                                    North
Delaware                                         U                                                  Carolina                                   U                         U
District of                                                                                         North
Columbia                     U                                                                      Dakota
Florida                      U                   U                                        U         Ohio                         U             U                         U
Georgia                      U                   U                                                  Oklahoma                                   U
Hawaii                       U                                                                      Oregon

Idaho                        U                   U                                        U         Pennsylvania                               U             U
Illinois                                                                                            Puerto Rico
                                                                                                    Rhode
Indiana
                                                                                                    Island                       U             U
                                                                                                    South
Iowa
                                                                                                    Carolina                     U
                                                                                                    South
Kansas
                                                                                                    Dakota
Kentucky                     U                                                            U         Tennessee                                  U                         U
Louisiana                                        U                                                  Texas                        U                                       U
Maine                                                                                               Utah

Maryland                     U                   U                                        U         Vermont                                    U
Massachusetts                U                   U                                                  Virginia                     U
Michigan                                                                                            Washington                   U
                                                                                                    West
Minnesota                    U                   U                                                  Virginia                     U
Mississippi                  U                                                                      Wisconsin                    U
Missouri                                                                                  U         Wyoming                      U             U                         U
Source: Office of Inspector General analysis of State Medicaid directors’ responses, 2007. 


Note: In certain cases, States with current initiatives may also be planning to develop additional HIT initiatives. 





              OEI-02-06-00270           S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE                                       22
Δ            A P P E N D I X ~ C



Planned Statewide HIE Networks Involving State Medicaid Agencies

State                           Initiative Name
Arizona                         Arizona Health-e Connection

California                      California Regional Health Information Organization (CalRHIO)

Colorado                        Colorado Regional Health Information Organization (CORHIO)

Connecticut                     eHealth Connecticut

Delaware                        Delaware Health Information Network (DHIN)

Florida                         Florida Health Information Network (FHIN)

Georgia                         Health Information Technology and Transparency Advisory Board

Idaho                           Idaho Health Quality Planning Commission

Indiana                         Indiana Health Information Exchange

Kansas                          Kansas HIT/HIE Policy Initiative

Kentucky                        Kentucky e-Health Network (Ke-HN)

Louisiana                       Louisiana Health Information Exchange (LaHIE)

Massachusetts                   MA-SHARE (Massachusetts—Simplifying Healthcare Among Regional Entities)

Michigan                        Michigan Health Information Network (MiHIN)

Minnesota                       Minnesota e-Health Initiative

New Jersey                      Health Information Network Technology (HINT)

New York                        Health e-Links Program

Ohio                            Ohio Health Information Technology (OHHIT)

Rhode Island                    Anytime, Anywhere Health Care Information

Tennessee                       Tennessee e-Health Advisory Council

Utah                            Utah Health Information Network Clinical (UHIN Clinical)

Vermont                         Vermont Information Technology Leaders (VITL)

Washington                      Washington Health Information Infrastructure Advisory Board

West Virginia                   West Virginia Health Information Network (WVHIN)

Wisconsin                       eHealth Care Quality and Patient Safety Board

Source: Office of Inspector General analysis of State Medicaid directors’ responses, 2007.




           OEI-02-06-00270            S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   23
Δ   A P P E N D I X ~ D




    OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   24 

A   P   P E N D           I X           ~            D            





        OEI-02-06-00270         S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   25 

Δ      A C K N O W L E D G M E N T S




                  This report was prepared under the direction of Jodi Nudelman,
                  Regional Inspector General for Evaluation and Inspections in the New
                  York regional office, and Meridith Seife, Deputy Regional Inspector
                  General.

                  Christine Moundas served as lead analyst for this study. Other
                  principal Office of Evaluation and Inspections staff who contributed to
                  this study includes Christi Macrina from the Dallas regional office.
                  Other regional and central office staff who contributed include
                  Elizabeth Jones and Mark Richardson.




OEI-02-06-00270   S TAT E M E D I C A I D A G E N C I E S ’ I N I T I AT I V E S   ON   HIT   AND   HIE   26
